WAIVER

SUPREME COURT OF THE UNITED STATES

 

lEdith Woodberry | icity of Detroit, Michigan |

     

(Petitionex) v. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s

     

i
I

rmannnnnaesinniensermennaneaminnmenint

 

Please check the appropriate box:

 

 

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Jam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, 8, Washington, D.C. 20543).

Signature:

[aaa 8/24/21

  
 
 

Date:

  

   

   
 
 

6 Mr. O Ms. _O Mrs ° Miss

Firm miler, Canfield, Paddock and Stone, P. L.c.
Address 150 West Jeff Jefferson Ave., Su Suite | 2500

 
 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

[Edith Woodberry
|
ce: i

 

 

 
